No. 20-1060
JOSÉ L. OLIVA,
v.
MARIO J. NIVAR, ET AL.,

Petitioner,
Respondents.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief of Amicus Curiae Professor Seth
W. Stoughton in Support of Petitioner was sent via
overnight FedEx to the U.S. Supreme Court and service was provided to counsel for Respondents as listed
below on February 9, 2021
Via email (consent provided):
Patrick Jaicomo
Anya Bidwell
Alexa Gervasi
Institute for Justice
901 North Glebe Road, Suite 900
Arlington, Virginia 22203
pjaicomo@ij.org
Counsel for Petitioner José L. Oliva
James Kerby Jopling
747 E. San Antonio Avenue, Suite 103
El Paso, Texas 79901
jim@joplinglaw.com
Counsel for Respondent Mario J. Nivar

Gabriel Steven Perez
Ortega McGlashan Hicks & Perez, P.L.L.C.
609 Myrtle Avenue, Suite 100
El Paso, Texas 79901
gabrielperez@ellisandortega.com
Counsel for Respondent Mario Garcia
Via Federal Express:
Louis Elias Lopez, Jr.
416 N. Stanton, Suite 400
El Paso, Texas 79901
llopez@lelopezlaw.com
Counsel for Respondent Hector Barahona
February 9, 2021

/s/ Randall C. Smith
Counsel of Record

